                                                           Issue Date

                                                             June 13, 2007

                                                           Audit Report Number
                                                            2007-NY-1007




TO:        Kathleen Naymola, Director, Office of Community Planning and
                                            Development, 2FD


FROM:      Edgar Moore, Regional Inspector General for Audit, 2AGA

SUBJECT:   The City of Jersey City, New Jersey, Did Not Always Adequately Administer
           Its HOME Investment Partnerships Program


                                  HIGHLIGHTS

 What We Audited and Why

            We audited the City of Jersey City, New Jersey’s (City) HOME Investment
            Partnerships Program (HOME) based on its year 2006 program funding of $3.1
            million and a high U.S. Department of Housing and Urban Development (HUD)
            risk analysis score. The objectives of our audit were to determine whether the
            City disbursed HOME funds efficiently and effectively in accordance with
            applicable rules and regulations, and had a financial management system in place
            to adequately safeguard the funds.

 What We Found


            The City did not always disburse HOME funds efficiently and effectively in
            accordance with applicable rules and regulations, and did not have a financial
            management system, which adequately safeguarded the funds. Specifically, the
            City failed to (a) enter into a contract for new construction and ensure that
            financing was available before disbursing funds, (b) ensure that funds disbursed
            were adequately secured, (c) repay funds related to two terminated projects, and
            (d) enter accurate information into HUD’s Integrated Disbursement and
            Information System (IDIS). As a result, $354,581 was disbursed without an
            executed contract, $78,073 in disbursed funds was not secured, $267,547 in
            funds related to two terminated projects was not repaid, and incorrect information
            related to the City’s HOME activities was entered into IDIS. These problems
            occurred because City officials were not familiar with HUD requirements and,
            therefore, did not have controls in place to ensure compliance with all of the
            regulations. Consequently, the administration of the City’s HOME program
            suffered.

What We Recommend
            We recommend that the director of HUD’s Office of Community Planning and
            Development, Newark field office, require the City to submit all supporting
            documentation to HUD regarding the $354,581 in HOME funds disbursed so that
            HUD can make an eligibility determination. Any amounts determined to be
            ineligible should be repaid from nonfederal funds. In addition, the City should repay
            $267,547 plus interest for the two terminated rehabilitation projects. Lastly, the City
            should establish and implement controls to ensure that HOME funds are used in
            accordance with all program requirements and written agreements, periodic
            monitoring is performed on the activities so that appropriate action can be taken
            when performance problems arise, amounts disbursed are properly recorded on
            mortgage notes and agreements, and accurate information is entered into IDIS.

            For each recommendation without a management decision, please respond and
            provide status reports in accordance with HUD Handbook 2000.06, REV-3.
            Please furnish us copies of any correspondence or directives issued because of the
            audit.

 Auditee’s Response


            We discussed the results of our review during the audit and at an exit conference
            held on May 17, 2007. Auditee officials provided their written comments at the
            exit conference, as per our May 4, 2007 request. Auditee officials were generally
            displeased with the audit finding; however, they recognize that there is always
            room for improvement. The complete text of the auditee’s response, along with
            our evaluation of that response, can be found in appendix B of this report.




                                              2
                            TABLE OF CONTENTS

Background and Objectives                                                       4

Results of Audit
      Finding: The City Did Not Always Adequately Administer Its HOME Program   5


Scope and Methodology                                                           11

Internal Controls                                                               12

Appendixes
   A. Schedule of Questioned Costs and Funds to Be Put to Better Use            14
   B. Auditee Comments and OIG’s Evaluation                                     15




                                            3
                     BACKGROUND AND OBJECTIVES

The HOME Investment Partnerships Program (HOME) was created by Title II of the Cranston-
Gonzalez National Affordable Housing Act, as amended, and is regulated by 24 CFR
[Code of Federal Regulations] Part 92. HOME funds are awarded annually as formula grants to
participating jurisdictions. Eligible uses of funds include homeownership down payment, tenant-
based assistance, housing rehabilitation, assistance to homebuyers, and new construction of
housing. HOME funding may also be used for site acquisition, site improvements, demolition,
relocation, and other necessary and reasonable activities related to the development of nonluxury
housing. All housing developed with HOME funds must serve low and very low-income
families.

Jersey City is governed by a Mayor and nine council members. The current Mayor is Mr.
Jerramiah T. Healy.

The City administers its CDBG (Community Development Block Grant), HOME, ESG
(Emergency Shelter Grant) and HOPWA (Housing Opportunities for People With AIDS)
programs through the Division of Community Development. The City was awarded $3.6
million and $3.3 million in HOME funding from the U.S. Department of Housing and Urban
Development (HUD) for program years 2004 (April 1, 2004, to March 31, 2005) and 2005 (April
1, 2005, to March 31, 2006), respectively.

The City uses its HOME funds for its First Time Home Buyer Assistance and rental programs.
Funding is also reserved for community housing development organizations and other nonprofit
and profit-motivated organizations to develop affordable housing units. In addition, the City
provides operating funding to community housing development organizations. Under the First
Time Home Buyer Assistance program, funding is provided to individuals toward their
downpayment and closing costs. The rental program involves new construction, substantial
rehabilitation, and conversion projects.

Our audit objectives were to determine whether the City disbursed HOME funds efficiently and
effectively in accordance with applicable rules and regulations, and had a financial management
system in place to adequately safeguard the funds.




                                               4
                                 RESULTS OF AUDIT


Finding: The City Did Not Always Adequately Administer Its HOME
         Program
Contrary to federal regulations, the City did not always adequately administer its HOME
program. Specifically, the City failed to (a) enter into a contract for new construction and ensure
that financing was available before disbursing funds, (b) ensure that funds disbursed were
adequately secured, (c) repay funds related to two terminated projects, and (d) enter accurate
information into HUD’s Integrated Disbursement Information System (IDIS). As a result,
$354,581 was disbursed without an executed contract, $78,073 in disbursed funds was not
secured, $267,547 in funds related to two terminated projects was not repaid, and incorrect
information related to the City’s HOME activities was entered into IDIS. These problems
occurred because City officials were not familiar with all HUD requirements and, therefore, did
not have controls in place to ensure compliance with all of the regulations. Consequently, the
administration of the City’s HOME program suffered.

 The City Did Not Enter into a
 Contract with a Community
 Housing Development
 Organization or Ensure That
 Adequate Financing Was
 Available
               In program year 2001, the City reserved $650,000 in HOME funding for the
               construction of 24 affordable housing units, being developed by the Urban
               League, a community housing development organization (CHDO).

               Regulations at 24 CFR 92.504(b) state that “before disbursing any HOME funds
               to any entity, the participating jurisdiction must enter into a written agreement
               with that entity. The written agreement must ensure compliance with the
               requirements of this part.” However, the City did not enter into a written
               agreement with the Urban League before disbursing $354,581 in HOME funds for
               construction work. Without a written agreement, the City had no legally binding
               record of the construction work that was to be completed and, therefore, no basis
               to effectively monitor the progress and performance of the Urban League.

               Regulations at 24 CFR 92.504(a) provide that the “participating jurisdiction is
               responsible for managing the day to day operations of its HOME program,
               ensuring that HOME funds are used in accordance with all program requirements
               and written agreement, and taking appropriate action when performance problems
               arise. The performance of each contractor and sub recipient must be reviewed at
               least annually.” However, we were not provided with any documentation



                                                 5
evidencing the City’s monitoring of the Urban League related to this construction
project.

Although construction work on this project appeared to have been started in
September 2005, progress seems to have been extremely slow. During our
December 2006 site visit, it was noted that no work was being done. City
officials stated that the Urban League was experiencing delays due to issues with
the title for the property to be conveyed, financing issues, and construction
challenges.

Further, City officials informed us that the total construction project was
estimated to cost $5.39 million and that the cost was likely to increase. City
officials listed various sources for the funding, the majority of which was
supposed to be provided through private financing ($1.92 million, or
approximately 36 percent). However, City officials also stated that the Urban
League is obtaining financing through the State of New Jersey Special Needs
Housing Trust Fund instead of private financing. As of February 21, 2007, the
Urban League was still meeting with the Division of Supported Housing and
Special Needs and the New Jersey Housing and Mortgage Finance Agency in an
attempt to secure financing. It appears that the Urban League has been unable to
secure financing from program year 2001 to the present. Therefore, little progress
has been made on the construction, and there is concern that if costs increase
significantly, the completion of the project is uncertain.

It is apparent that the City provided HOME funding to the Urban League without
ensuring that the all sources of funding and financing were secured. In program
year 1996, the City had also provided HOME funding before all of the financing
was arranged by the developer. Regulations at 24 CFR 92.300 (2) (b) require
participating jurisdictions to make reasonable efforts to identify CHDOs that are
capable, or can reasonably be expected to become capable of carrying out
activities.

These problems occurred because City officials were unaware of HOME program
requirements and disbursed HOME funding without ensuring that the Urban
League had secured financing. Therefore, since the City did not execute a
contract, monitor the progress of the project, or ensure that there was adequate
financing, the $354,581 disbursed is considered to be unsupported pending an
eligibility determination by HUD. Further, the City should not be allowed to
disburse any more of the $650,000 in funding committed for the 24 affordable
housing units until it can demonstrate to HUD that the remaining $295,419 in
funds will be used efficiently and effectively.




                                 6
$78,073 in Disbursed Funds
Was Not Secured
           In addition to the above, the City drew down $151,747 for a completed two-
           family rental property, but only recorded $73,674 on the homebuyer agreement
           and mortgage note. Therefore, the additional HOME funds of $78,073 were
           unsecured. Regulations at 24 CFR 92.504(b) require the participating
           jurisdiction to enter into a written agreement with any entity to which HOME
           funds are provided, and section 92.504(c)(5) requires the amount of HOME funds
           and the form of HOME assistance to be specified on the agreement as a minimum
           requirement. Since the City did not specify the correct HOME funding amount on
           the written agreement with the homebuyer, it may lose $78,073 in HOME funds if
           there is a default or resale and/or recapture needs to be exercised. This problem
           occurred because the City did not have adequate controls to ensure that the correct
           information was recorded on the agreement and mortgage note.

The City Failed to Repay Funds
to the HOME Investment Trust
Fund When Two Rehabilitation
Projects Were Terminated


           Contrary to the federal regulation, the City did not repay disbursed funds to the
           HOME Investment Trust Fund when two rehabilitation projects were terminated. In
           the first instance, during program year 1996, the City entered into a written
           agreement with the Urban League and committed $582,898 for the rehabilitation of
           15 affordable housing units. The rehabilitation project should have been considered
           as involuntarily terminated when the building had to be demolished in April 1998.
           The documents in the City’s files stated that funds were provided for the project
           before all of the financing was arranged and all of the required documents were
           transmitted. Also, we could not determine whether the City evaluated the building
           to determine whether it was structurally sound before committing the funds.

           Regulations at 24 CFR 92.205(e) state, “A HOME assisted project that is terminated
           before completion, either voluntarily or otherwise, constitutes an ineligible activity
           and any HOME funds invested in the project must be repaid to the participating
           jurisdiction’s HOME Investment Trust Fund.” As of the demolition date, the City
           had disbursed a total of $254,231 ($125,000 plus $129,231) to the Urban League
           related to this rehabilitation work. Therefore, these funds should have been repaid to
           the HOME Investment Trust Fund upon termination. This noncompliance occurred
           because City officials were unfamiliar with the HOME program requirement, which
           specifies that the City needs to repay funds to the HOME Investment Trust Fund
           when a project is terminated. These funds could have been used for other feasible
           HOME projects or activities if the City had repaid the funding expended for this
           terminated project.




                                             7
                      In another case, the City committed HOME funds of $197,506 to acquire and
                      rehabilitate two separate two-family rental properties. However, the developer only
                      completed one project and terminated the other project due to high costs. The
                      developer notified the City of the terminated project in February 2004; however,
                      City officials continued to draw down funds totaling $13,316 through December
                      2004. Contrary to the above regulations, City officials failed to repay $13,316
                      because they were not aware that when a HOME-assisted project is terminated, any
                      HOME funds invested in the project must be repaid. In addition, regulations at 24
                      CFR 92.205(d) indicate that only the actual HOME-eligible development cost of the
                      assisted units may be charged to the HOME program. Since the terminated property
                      did not produce any assisted units, the direct cost of $13,316 that was spent for the
                      terminated property should have been determined to be ineligible and repaid by the
                      City to the HOME Investment Trust Fund.

                      The City Should Be Required to Pay Interest

                      Since the City failed to repay the above HOME funds totaling $267,547 in a timely
                      manner, it should be required to pay interest charges in accordance with federal
                      regulations. Regulations at 31 CFR 901.9(a) state, “Agencies shall charge interest,
                      penalties, and administrative costs on debts owed to the United States pursuant to 31
                      U.S.C. [United States Code] 3717. Regulations at 31 CFR 901.9 (b) (3) state that
                      “the rate of interest shall remain fixed for the duration of the indebtedness and
                      interest shall not be compounded.” The interest rate charged is the tax and loan
                      account rate for the U.S. Treasury (also known as current value of funds rate) as
                      prescribed and published semiannually by the secretary of the treasury in the
                      Federal Register. Based on the above funds that were not repaid in a timely
                      manner to the HOME Investment Trust Fund, we calculated that interest due HUD is
                      $113,645.1

Incorrect Information Was
Recorded in IDIS
                      City officials recorded incorrect and misleading information into HUD’s Integrated
                      Disbursement Information System (IDIS). In April 1998, the City disbursed
                      $129,231 to rehabilitate 15 affordable housing units as described above. However,
                      instead of recording this amount in IDIS as drawndowns under rehabilitation
                      projects, the City recorded it under new construction projects. Funding for new
                      construction projects was not reserved and committed by the City until program year
                      2001. Therefore, the City did not have adequate controls to ensure that correct
                      information was entered into IDIS. The IDIS report as of December 18, 2006,
                      indicates that $779,231 had been committed and $483,812 had been drawn down for

1
    Interest charged is the simple treasury interest rate in effect at the time the debt becomes overdue. The rate of interest remains
    fixed during the duration of the indebtedness. The interest for the $254,231 is calculated from May 1, 1998, to March 31, 2007
    (8 years and 11 months, or 107 months). The interest was calculated as follows: $254,231 X .05/12 months X 107 months =
    $113,345. The interest for the $13,316 is calculated from January 1, 2005, to March 31, 2007 (2 years and 3 months, or 27
    months). The interest was calculated as follows: $13,316 X .01/12 months X 27 months = $300.




                                                                   8
             new construction activity. However, the correct amounts for new construction
             projects should have been $650,000 committed and $354,581 drawn down. Thus,
             reporting the $129,231 as a new construction project instead of as a rehabilitation
             project could mislead HUD and could affect future funding decisions.

             Further, City officials entered a terminated rehabilitation project in IDIS reports as a
             completed project; therefore, HUD could have concluded that the project had been
             completed and affordable housing units produced. In addition, the project was
             misclassified when the IDIS information was set up. The rehabilitation project
             should have been set up as an acquisition and rehabilitation activity since the City
             had disbursed $125,000 to the Urban League for acquisition of the building.
             However, contrary to 24 CFR 92.502(b) (1), which requires the participating
             jurisdiction to enter complete project setup information into IDIS, this was not done.

Conclusion

             The City did not adequately administer its HOME program, as it did not enter into a
             written agreement, ensure that there was sufficient financing, or monitor the
             progress of its construction project. As a result, the $354,581 disbursed for the new
             construction activity was not spent efficiently or effectively, as there have been long
             delays and units may never be completed. Further, the City did not have adequate
             controls to ensure that funds paid were properly secured, terminated projects were
             identified, action to recover the funds advanced was timely, and information entered
             into IDIS was accurately reported. These problems occurred because City officials
             were not familiar with all HUD requirements and, therefore, did not ensure
             compliance with all of the regulations. Consequently, the administration of the
             City’s HOME program suffered.

Recommendations

         We recommend that the director of the Newark Office of Community Planning and
         Development instruct the City to

         1A.       Provide documentation to justify the $354,581 in unsupported costs so that
                   HUD can make an eligibility determination, and reimburse from nonfederal
                   funds the amount of any unsupported costs determined to be ineligible.

         1B.       Not disburse any more of the $650,000 in funding committed for the 24
                   affordable housing units until the City secures funding and implements the
                   above recommendation so that HUD can be assured that the remaining
                   $295,419 in funds will be used efficiently and effectively.

         1C.       Repay $267,547 related to the two terminated rehabilitation projects to the
                   HOME Investment Trust Fund treasury account from nonfederal funds.




                                                9
1D.   Pay $113,645 in incurred interest related to funds not immediately repaid on
      two terminated rehabilitation projects to the HOME Investment Trust Fund
      treasury account.

1E.   Establish and implement controls to ensure that terminated projects and/or
      properties are identified in a timely manner so that action can be taken to
      recover ineligible costs.

1F.   Establish and implement controls to ensure that before disbursing any HOME
      funds, the City has entered into written agreements for the services to be
      provided so that all funds disbursed are secured.

1G.   Establish and implement controls to ensure that HOME funds are used in
      accordance with all program requirements and written agreements and that
      periodic monitoring is performed on the activities so that appropriate action
      can be taken when performance problems arise.

1H.   Establish and implement controls to ensure that agreements are not executed
      and HOME funds are not disbursed until the developer obtains and secures all
      sources of funding and financing when the project is funded by various sources
      in addition to HOME funding.

1I.   Correct the information on the mortgage note and the homebuyer agreement to
      reflect the total indebtedness of the actual HOME funds of $151,747 that were
      disbursed to complete the property and to account for the additional $78,073,
      thereby securing the interest of the HOME program for the funds provided.

1J.   Establish and implement controls to ensure that data in mortgage notes,
      agreements, and IDIS are correctly recorded.




                                  10
                         SCOPE AND METHODOLOGY

To accomplish our audit objectives, we

       •   Reviewed applicable federal regulations relating to the administration of the HOME
           program and conducted interviews and inquiries of officials from the City and HUD’s
           Office of Community Planning and Development.

       •   Reviewed HUD files related to the City’s HOME program including the five-year
           consolidated plan, consolidated annual performance and evaluation report, action plan,
           correspondence files, and HUD’s monitoring reports.

       •   Reviewed the independent public accountant’s audit report covering the City’s HOME
           program.

       •   Reviewed administrative draws to determine whether the City complied with the 10
           percent limit.

       •   Reviewed HOME matching fund requirements.

       •   Reviewed the listing of community housing development organizations receiving
           operating and reserve funding from the City for program years 2004 and 2005.

       •   Selected a nonstatistical sample of three IDIS activities, consisting of six projects for
           which reserve funding was granted, to determine whether HOME program requirements
           were met and disbursements were made for HOME-eligible activities. In addition, we
           reviewed two IDIS activities assigned to one project address; the funding for these two
           activities was committed in program years 1996 and 2001.

       •   Reviewed operating and reserve funding agreements executed between the City and
           two community housing development organizations to determine whether the terms
           and conditions contained in the agreements were adequate to ensure compliance with
           HUD regulations.

       •   Selected a nonstatistical sample of 10 of 31 applicants from the City’s First Time
           Home Buyers program, 6 of 21 multifamily rental projects, and 2 of 13 two-family
           rental projects to determine whether HOME program requirements were met.

We performed our audit fieldwork between October 2006 and January 2007 at the City’s Division
of Community Development located at 30 Montgomery Street, Jersey City, New Jersey. The
audit generally covered the period between April 1, 2004 and March 31, 2006 (program years
2004 and 2005), and was expanded as necessary. The audit was conducted in accordance with
generally accepted government auditing standards.




                                                11
                             INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls relate to management’s plans, methods, and procedures used to meet its
missions, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls

              We determined the following internal controls were relevant to our audit objectives:

              •       Program operations – Policies and procedures that management has
                      implemented to reasonably ensure that a program meets its objectives.

              •       Validity and reliability of data – Policies and procedures that management
                      has implemented to reasonably ensure that valid and reliable data are
                      obtained, maintained, and fairly disclosed in reports.

              •       Compliance with laws and regulations – Policies and procedures that
                      management has implemented to reasonably ensure that resource use is
                      consistent with laws and regulations.

              •       Safeguarding resources – Policies and procedures that management has
                      implemented to reasonably ensure that resources are safeguarded against
                      waste, loss, and misuse.

              We assessed the relevant controls identified above.

              A significant weakness exists if management controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling
              program operations will meet the organization’s objectives.




                                               12
Significant Weaknesses
           Based on our review, we believe the following items are significant weaknesses:

               •   The City did not have adequate controls to ensure the validity and reliability
                   of data when information was entered into IDIS that was not accurate and
                   timely (see finding).

               •   The City did not have adequate controls to ensure compliance with laws and
                   regulations when HOME funds disbursed on projects that were terminated
                   were not repaid to the HOME Investment Trust Fund (see finding).

               •   The City did not have adequate controls to safeguard resources when it did
                   not execute a written agreement with a developer before disbursing HOME
                   funds and did not have funds disbursed properly secured by a mortgage
                   note and homebuyer agreement (see finding).




                                             13
                                    APPENDIXES

Appendix A

              SCHEDULE OF QUESTIONED COSTS
             AND FUNDS TO BE PUT TO BETTER USE

           Recommendation                                                Funds to be put
                  number              Ineligible 1/   Unsupported 2/      to better use 3/
                          1A                                $354,581
                          1B                                                    $295,419
                          1C            $267,547
                          1D                                                    $113,645
                           1I                                                    $78,073

                        Total           $267,547            $354,581            $487,137


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or federal, state, or local
     polices or regulations.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of audit. Unsupported costs
     require a decision by HUD program officials. This decision, in addition to obtaining
     supporting documentation, might involve a legal interpretation or clarification of
     departmental policies and procedures.

3/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. This includes cost reduction in outlays, deobligation of funds, withdrawal
     of interest subsidy costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
     which are specifically identified. In these instances, if the City implements our
     recommendations by ensuring that financing was available before disbursing funding for
     the construction of 24 affordable housing units, paying interest on funds not repaid to the
     HOME Investment Trust Fund account related to two terminated projects, and correcting
     its mortgage notes and agreements to ensure that amounts disbursed are secured, the
     above HOME funds will be available to be used more efficiently.




                                              14
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




                         15
Comment 1




Comment 2




            16
Comment 3




Comment 3




Comment 4




Comment 5




            17
Comment 6




                         OIG Evaluation of Auditee Comments

Comment 6   Evaluate each comment (as concisely as possible) referenced in the first part of
            this appendix where the comments are presented.



Comment 6




                                            18
19
                         OIG Evaluation of Auditee Comments

Comment 1   City officials state that although the audit focused on fiscal years 2004 and 2005,
            the finding primarily pertains to a project that was funded in 2001 and earlier.
            However, it should be noted that the scope and methodology section of this report
            provides that the audit generally covered the period between April 1, 2004 and
            March 31, 2006, and was expanded as necessary. Thus we audited transactions
            that occurred before and after the audit period as deemed necessary.


Comment 2   City officials stated that the City did enter into a contract with the Urban League,
            a community housing development corporation (CHDO) for the new construction
            project, but the contract was misplaced and a replacement agreement was
            executed. They also state that the City does not release grant funds without an
            agreement and all disbursements were properly supported. In addition, site
            inspections were performed prior to the release of funds.

            However, the City did not provide us with or maintain a copy of the original
            agreement as required by the regulations. 24 CFR 92.508 (a) (4) (i) and (iv)
            requires a participating jurisdiction to maintain written agreements reserving
            HOME funds to the community housing development organization (CHDO) and
            records demonstrating that each CHDO complies with written agreements.
            Further, the replacement agreement referred to by the City was obtained after we
            started our review, and was dated December 2006. The replacement agreement
            was incomplete and did not contain a reason why the replacement agreement was
            executed nor did it include timeframes, deadlines or key milestones. Thus, the
            City disbursed $354,581 of HOME funds without having a documented signed
            agreement, had no legally binding record of the construction work that was to be
            completed, and had no basis to effectively monitor the progress and performance
            of the CHDO. Without this information, the City’s ability to conduct progress
            monitoring was limited. In addition, City officials did not provide any documents
            to support that an on-site inspection was performed by the project manager and
            senior inspector before the release of grant funds.

Comment 3   The City is confident that the Urban League will secure the necessary financing to
            bring this project to fruition. Although the Urban League received correspondence
            from the New Jersey Housing and Mortgage Finance Agency, dated March 14,
            2007, indicating that the project meets eligibility requirements, no funding has
            been provided and it appears to be contingent on the Urban League’s finalizing
            funding from all other sources. Thus, the project’s progress has been impacted by
            the Urban League’s inability to secure financing from program year 2001 to
            present and therefore its ability to complete the construction work is highly
            uncertain and it might jeopardize completion of the project.

Comment 4   The auditee’s comments are responsive to the recommendations in the finding.




                                             20
Comment 5   City officials agreed that the rehabilitation of one project had been cancelled and
            acknowledge the City must repay $13,316. However, City officials stated that the
            other project was not cancelled or terminated, but was modified from a
            rehabilitation project to a new construction project after the building’s collapse.
            City officials stated that there was no reason to reimburse the HOME program for
            an active project that was delayed as a result of circumstances that were beyond
            the developer’s and City’s control. This rehabilitation project should be
            considered as an involuntarily terminated project. Regulations at 24 CFR 92.205
            (e) states that “a HOME assisted project that is terminated before completion,
            either voluntarily or otherwise, constitutes an ineligible activity and any HOME
            funds invested in the project must be repaid.” City officials did not provide any
            evidence to show that before committing funds and executing a written agreement
            with the Urban League, the building’s physical condition and structure was
            evaluated to determine if the building could be successfully rehabilitated. As
            such, without evidence of an inspection the City cannot assure us that the
            structure of the building was sound or whether the building collapse was an
            unforeseen occurrence. Based on property transfer records that we obtained, the
            Urban League had purchased the building in July 1997, and building had to be
            demolished within ten months of the purchase of the building.

Comment 6   City officials indicated that they made every effort to be as transparent as possible
            in reporting in IDIS on the rehabilitation projects and that HUD staff were aware
            of the status of the various projects. However, our review of the IDIS Status of
            HOME activities report as of July 15, 2006, September 05, 2006 and December
            18, 2006 reported the status of the rehabilitation project (IDIS activity number
            423) as completed. According to HUD staff, it should have been shown as a
            cancelled activity instead of as a completed activity otherwise it provides
            misleading information that the project was completed and produced affordable
            housing units as indicated in the report.




                                             21
